U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Stevenson Ruben Oneal Moore v. Robert M. Wilkinson,
Acting Attorney General, S.Ct. No. 20-1048

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 26,
2021, and placed on the docket on February 1, 2021. The government’s response is due on
March 3, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 2, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1048
MOORE, STEVENSON RUBEN ONEAL
ROBERT M. WILKINSON, ACTING ATTORNEY
GENERAL

RICHARD W. MARK
GIBSON, DUNN & CRUTCHER LLP
200 PARK AVENUE
NEW YORK, NY 10166-0193
212-351-3818
RMARK@GIBSONDUNN.COM

